No. 19-648

 

In THE
Supreme Court of the United States

CACI PREMIER TECHNOLOGY, INC.,
Petitioner,

Vv.

SUHAIL NAJIM ABDULLAH AL SHIMARI; SALAH HASAN
NUSAIF JASIM AL-EJAILI; ASA’AD HAMZA HANFOOSH
AL-ZUBA’'E,

Respondents.

On Petition For a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

BRIEF OF AMICUS CURIAE KELLOGG BROWN &
ROOT SERVICES, INC. INSUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,116 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 19, 2019.
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
